                                   UNITED STATES
                           NUCLEAR REGULATORY COMMISSION
                                    WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                 January 26, 2012



MEMORANDUM TO:             R. William Borchardt
                           Executive Director for Operations

                           J. E. Dyer
                           Chief Financial Officer


FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   MEMORANDUM REPORT: AUDIT OF NRC’S IMPLEMENTATION
                           OF THE FEDERAL MANAGERS’ FINANCIAL INTEGRITY ACT
                           FOR FISCAL YEAR 2011
                           (OIG-12-A-07)


This report reflects the Office of the Inspector General’s assessment of the Nuclear Regulatory
Commission’s (NRC) fiscal year (FY) 2011 compliance with the Federal Managers’ Financial
Integrity Act of 1982 (FMFIA). We found that NRC complied with the FMFIA requirements.


BACKGROUND

The FMFIA, enacted on September 8, 1982, requires ongoing evaluations and reports of the
adequacy of the systems of internal accounting and administrative control of each executive
agency. Further, the FMFIA requires that, each year, the head of each executive agency
report to the President and the Congress on their agency’s compliance with the FMFIA
requirements.

Effective beginning with FY 2006, Office of Management and Budget Circular No. A-123,
Management’s Responsibility for Internal Control, revised December 2004, requires agencies
to include the annual FMFIA report as part of the Performance and Accountability Report
under the heading “Management Assurances.” Additionally, this circular requires management
to provide a separate assurance statement relating to the effectiveness of internal control over
financial reporting.
               Audit of NRC’s Implementation of the Federal Managers’ Financial Integrity Act for Fiscal Year 2011


RESULTS

In the FY 2011 Performance and Accountability Report, the NRC Chairman provided
reasonable assurance that internal control over operations, compliance with laws and
regulations, and internal control over financial reporting were operating effectively and no
material weaknesses were found. The Inspector General concurs with the assurances made
and found that NRC complied with the FMFIA requirements.


AGENCY COMMENTS

A draft report was provided to the Executive Director for Operations and the Chief Financial
Officer for comment. No comments were provided on the report.


SCOPE/CONTRIBUTORS

We audited the internal controls related to NRC’s implementation of the FMFIA for FY 2011,
and conducted our work at NRC Headquarters during January 2012, in accordance with
generally accepted Government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. This audit was conducted by Kathleen Stetson, Team Leader; Eric Rivera, Audit
Manager; and Michael Steinberg, Senior Auditor.

If you have any questions, please contact me at 415-5915 or Kathleen Stetson, Team Leader,
at 415-8175.


cc:   Chairman Jaczko
      Commissioner Svinicki
      Commissioner Apostolakis
      Commissioner Magwood
      Commissioner Ostendorff
      N. Mamish, OEDO
      K. Brock, OEDO
      J. Arildsen, OEDO
      C. Jaegers, OEDO
